Memorandum from the Office of the Inspector General



April 28, 2008

John J. Bradley, OCP 2A-NST

FINAL REPORT – INSPECTION 2007-513I – REVIEW OF TRUST FUNDS
ADMINISTERED BY ECONOMIC DEVELOPMENT



Attached is the subject final report for your review. Your written comments, which
expressed agreement with our recommendation, have been included in the report.
However, since you stated that to your knowledge TVA no longer establishes trust
accounts, no further management action is needed, and this report is being issued for
informational purposes only. Accordingly, no response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Richard C. Underwood, Project Manager, at
(423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff
during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:BKA
Attachment
cc (Attachment):
     Kenneth R. Breeden, OCP 1F-NST
     Peyton T. Hairston, Jr., WT 7B-K
     Tom D. Kilgore, WT 7B-K
     John E. Long, Jr., WT 7B-K
     Richard W. Moore, ET 4C-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2007-513I
                       Tennessee Valley Authority
                       Office of the Inspector General


Inspection Report



REVIEW OF TRUST FUNDS
ADMINISTERED BY
ECONOMIC DEVELOPMENT




Inspection Team                               2007-513I
Richard C. Underwood                      April 28, 2008
Julie A. Lovingood
Office of the Inspector General                                       Inspection Report


SYNOPSIS
Based on information obtained during Audit 2007-005F, Identification of TVA's
Cash Accounts, we reviewed trust funds administered by Economic Development
(ED). Documentation provided by the Chief Financial Officer (CFO) personnel
showed that as of October 2006 ED was responsible for 18 trust funds. We
excluded 2 of the 18 accounts identified as trusts from our review because loans
from these accounts were reviewed in Inspection 2007-512I, Review of TVA's
Economic Development Loan Program, dated August 16, 2007.

In summary, we found the majority of the trust funds were inactive. According to
ED management, these trust funds had been established between 1983 and
1991 for a variety of purposes. ED has closed 16 of the identified trusts on its
books and removed the balances from TVA's general ledger. However,
documentation of the trust agreements was limited. TVA management could not
provide documentation to show the recipients of fund balance distributions or the
reallocation of the funds beyond 2006 closeout memoranda from TVA to the
recipients that certified that the contract requirements had been met and that
funds had been used as required by the contract.

In addition, TVA management could not provide us with account statements for
11 of the 16 trust accounts, bank account numbers for 6 of the 16 trusts, or the
underlying agreements for half the trusts. Because of the limited documentation,
we were unable to determine whether the trust funds are being administered in
accordance with the terms of the agreements and applicable laws and
regulations.

If TVA should establish trusts under ED in the future, we recommend that the
Senior Vice President (SVP), ED, establish controls designed to provide
reasonable assurance that all trust fund money is administered in accordance
with the terms of the trust agreements and applicable laws and regulations. This
would include requiring that documentation be maintained showing final
distribution and/or reallocation of funds and requiring that trust agreements be
maintained.

ED provided comments on a draft of this report and generally agreed with our
recommendation. However, according to the SVP, ED, "TVA no longer
establishes trust accounts, and it is not TVA's intent to do so in the future." As a
result, this report is being issued for informational purposes only, and no further
action is required at this time.

See the Appendix for ED's complete response.




Inspection 2007-513I                                                             Page 1
Office of the Inspector General                                      Inspection Report


BACKGROUND
During Audit 2007-005F, six bank accounts were identified that were associated
with trust funds under the authority of ED. We used information provided by the
Treasurer's office during that audit to attempt to identify all trust funds
administered by ED. The Trust Activity Report provided by the Treasurer's office
dated October 2006 identified 18 trust funds under ED's management. While
13 of these showed receipt and/or disbursement activity on Treasury statements
from October 2005 through October 2006, only 4 had balances as of October
2006 reflected in the TVA general ledger. ED management indicated that the
activity in 11 of the 13 accounts with receipts and/or disbursements was related
to the closing of the accounts and disbursement or reallocation of any balances.

According to ED management, funds were distributed to the recipients when the
project agreements were initiated between 1983 and 1991. ED management
stated that the actions taken by ED and the CFO in 2006 were to remove/restate
the trusts to zero on TVA's general ledger simply to reflect the fact that the funds
had been disbursed at some point in the past and are not due back to TVA. ED
management also stated that there were no funds disbursed by TVA in 2006, and
all trust funds identified on the October 2006 Trust Activity spreadsheet were
funded with appropriated dollars. Trust agreements provided by ED indicated
that the trust funds had various purposes, for example:

•   Extending a waterline to an industrial building.
•   Implementing a project to promote economic and social development of the
    TVA region by providing financial and other assistance to small business
    concerns owned by socially or economically disadvantaged persons.
•   Implementing an advanced telecommunications system and computerized
    learning network for a 5-county area.


OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of our review was to determine whether the trust funds are being
administered in accordance with the terms of the agreements and applicable
laws and regulations. Due to the inability of TVA management to provide
documentation of all trust agreements and account activity, we were unable to
achieve this objective. However, we did perform the following steps in relation to
trust funds administered by ED:

•   Interviewed key personnel to identify any policies, procedures, laws, and
    regulations applicable to the creation and administration of trust funds.
•   Obtained and reviewed available agreements for each trust fund to determine
    (1) the purpose of the trust; (2) fund provisions including specific laws and
    regulations that may apply to each fund; and (3) how the funds can be used.

Inspection 2007-513I                                                            Page 2
Office of the Inspector General                                         Inspection Report


•   Reviewed trust fund information provided by CFO personnel to determine
    (1) the current number of trust funds; (2) the TVA amount approved for each
    trust fund; (3) the current balance of each trust fund; (4) activity in each trust
    fund since October 1, 2005; and (5) whether the trusts were funded with
    appropriated dollars.
•   Obtained and reviewed available documentation indicating that the Special
    Opportunities Counties (SOC) funds were moved into the general fund.
•   Used additional information supplied by ED management to contact banks to
    try and ascertain recipients of final disbursements, current owners of funds
    from these trust agreements, and/or current account balances.

Our review covered all accounts identified on the Trust Activity Report dated
October 2006 as ED trust funds with two exceptions. Based on information
obtained from ED management, two accounts on the Trust Activity Report were
actually found to be regular bank accounts rather than trust funds:

•   The ED general fund is a bank account utilized to disburse and receive funds
    associated with the SOC loan program.
•   The Business Incubator fund is utilized as a revolving loan fund to assist
    businesses in meeting short-term needs for cash flow and operating capital.

SOC loans and loans from the Business Incubator program were addressed in
Inspection 2007-512I, Review of TVA's Economic Development Loan Program,
issued on August 16, 2007. Therefore, we excluded the ED general fund and the
Business Incubator fund from this review.

Except as discussed in the following paragraph, this inspection was conducted in
accordance with the "Quality Standards for Inspections." Those standards
require that we review evidence to support our inspection findings, conclusions,
and recommendations that is sufficient, competent, relevant, and that would lead
a reasonable person to sustain the findings, conclusions, and recommendations
of our inspection.

As noted in the body of our report, ED management was unable to provide trust
agreements for all of those trust funds under review. For this reason we were
unable to achieve our objective of determining whether the trust funds were
administered in accordance with the terms of the agreements and applicable
laws and regulations.


FINDINGS AND RECOMMENDATION
Our review of trust funds administered by ED found that ED has closed 16 of the
identified trusts on its books and removed the balances from TVA's general
ledger. ED advised that remaining fund balances were either provided to the

Inspection 2007-513I                                                               Page 3
Office of the Inspector General                                      Inspection Report


individual account holders to be used for economic development purposes or
moved to the ED general fund. Specifically, ED:

•   Informed us that 11 inactive trust account balances were removed/restated
    from TVA's general ledger.
•   Told us that it had closed three of the individual SOC trust funds and moved
    the funding to the ED general fund. The funding moved to the ED general
    fund totaled about $155,000. For the remaining SOC trust fund, the account
    was closed and the fund balance of $1,331 was given to the county for which
    it was designated.
•   Was unable to locate or provide trust agreements for 8 of the 16 trusts listed
    on the Trust Activity Report requiring a trust agreement.

In addition, based on information provided by ED, we were only able to obtain
information from banking institutions for 4 of the 11 accounts.

INACTIVE TRUSTS
ED management informed us that prior to our inspection they had been made
aware of the trust funds that were identified as being administered by ED and
had reviewed these trusts. ED management said they found no activity in the
majority of these trusts other than the SOC trust accounts. Therefore, ED had
taken steps toward cleaning up the list of trust funds for which it was responsible.
ED management stated they found limited documentation and information
available pertaining to the trusts, particularly with regard to those predating the
creation of the ED department in 1994.

According to ED management, they contacted the various banks where the trust
funds were held to obtain information in order to determine if the inactive
accounts should be closed. The only documentation ED management was able
to provide concerning these contacts with the banks was (1) a printout of a
previous employee's typed notes entitled "Status of Outstanding Trust Accounts
as of 9/29/05" with handwritten follow-up notes in the margins and/or (2) the
closeout letters they sent to the trust recipients. As a result of the information
from the banks, ED had closed approximately 11 inactive trust funds as of
July 27, 2007. Our review of documentation found that the 11 trusts held by the
trustees were recorded at about $781,000 on TVA's general ledger. According to
ED management, since the trusts were established with appropriated funding
between 1983 and 1991, the actions taken by ED and the CFO in 2006 were to
remove/restate the trusts to zero simply to reflect the fact that the funds had been
disbursed at some point in the past and are not due back to TVA. ED
management indicated there were no funds disbursed by TVA in 2006.

Based on additional information provided by ED management related to the
11 inactive trust accounts that were removed from TVA's general ledger, we
attempted to obtain information about any bank accounts holding funds that had

Inspection 2007-513I                                                            Page 4
Office of the Inspector General                                                            Inspection Report


been in trust related to these agreements including recipients of disbursements,
current owners of the monies, and/or current balances.

Information supplied by ED management ranged from closeout letters sent to
trust fund recipients with no responses to other documentation showing bank
account numbers believed to be associated with the trust agreements.1

For four trust accounts where we were provided with valid bank account
numbers, our contact with the local branches of the associated banks found that:

•      Monies for 3 of the 11 trust accounts were held at a financial institution under
       the name of the partner/recipient and had approximate current balances of
       $130,000. The purpose of the original trust agreements was to provide
       assistance to small business concerns owned or controlled by socially and
       economically disadvantaged persons. There has been no disbursement
       activity associated with these accounts since late 2006.
•      Monies for the same recipient/partner associated with a fourth trust
       agreement were held in an account at another financial institution with
       approximate current balances of $90,000. Again, there had been no
       disbursement activity in the account since late 2006.

For the remaining seven trusts where we could not obtain any additional
information from the banks, information provided by ED management for each
one was as follows:

•      A workplan and approval for the final disbursement of funds related to a fifth
       trust agreement dated January 17, 2001.
•      Documentation showing the final release of funds to partner/recipients related
       to three other trusts from 1998 and 2004.
•      Closeout letters signed by the partner/recipient noting that all contractual
       liabilities had been met and the trust account funds had been used for the
       intended purposes for two other trust accounts.
•      A copy of the closeout letter sent to the partner/recipient for the final account,
       however, ED management did not receive a signed notification back from the
       partner/recipient.

SOC LOANS
ED management stated that actions were also taken to move the individual SOC
trust funds into the ED general fund that was being used for SOC loans. Per ED

1
    Information provided by ED management included bank account information for 9 of the 11 trusts. We
    visited the local branches of the banks, and bank personnel informed us that account numbers provided for
    four of the trusts traced to current accounts (these are addressed in the body of the report). Account
    numbers for another four trusts could not be located in the banks' information systems, and for one trust
    fund the bank would not release any information without documentation indicating we had rights to the
    account.
Inspection 2007-513I                                                                                  Page 5
Office of the Inspector General                                       Inspection Report


management, as of July 27, 2007, ED had moved the four SOC trust funds into
the ED general fund. ED provided copies of three closeout letters to support
trust fund closure. We were also able to trace the three disbursements from the
trust funds accounts to the ED general fund bank statements. Two of the SOC
trust funds were closed prior to October 2006, and one was recently closed.

ED management was unable to provide documentation showing that the other
SOC trust fund was moved into the ED general fund. Per information provided
by CFO's personnel, the $1,331.47 fund balance was given to the respective
county for economic development purposes and was not deposited in the ED
general fund.

TRUST AGREEMENTS
When we requested trust agreements for our review purposes, ED was unable to
locate or provide trust agreements for 8 of the 16 trusts listed on the Trust
Activity report. Based on discussions with ED, it is our belief that trust
agreements were required for these trusts.

RECOMMENDATION
If TVA should establish trusts under ED in the future, we recommend that the
SVP, ED:

•   Establish controls designed to provide reasonable assurance that all trust
    fund money is administered in accordance with the terms of the trust
    agreements and applicable laws and regulations. This would include
    requiring that documentation be maintained showing final distribution and/or
    reallocation of funds and requiring that trust agreements be maintained.

Management's Response – The SVP, ED, provided comments on a draft of this
report. He agreed that in the event TVA should establish trusts in the future,
"controls should be designed to provide reasonable assurances that all trust fund
dollars are administered properly and that extensive documentation be
maintained regarding the accounts."

See the Appendix for the complete text of the SVP's comments.

Auditor's Comments – Based on the statement of the SVP, ED, that TVA no
longer establishes trust accounts and it is not TVA's intent to do so in the future,
no further management action is necessary at this time.




Inspection 2007-513I                                                             Page 6
APPENDIX
Page 1 of 1
